OCKLE

Legal Briefs E-Mail Address:
8 Est. 1923 contact@cocklelegalbriefs.com

2311 Douglas Street
Omaha, Nebraska 68102-1214

 

1-800-225-6964 Web Site
(402) 342-2831 www.cocklelegalbriefs.com
Fax: (402) 342-4850 Nos. 19-267, 19-348

OUR LADY OF GUADALUPE SCHOOL, PETITIONER,
v.
AGNES MORRISSEY-BERRU.
ST. JAMES SCHOOL, PETITIONER,

v.
DARRYL BIEL, AS PERSONAL REPRESENTATIVE OF THE
ESTATE OF KRISTEN BIEL

AFFIDAVIT OF SERVICE

I, Andrew Cockle, of lawful age, being duly sworn, upon my oath state that I did, on the 10th day of February, 2020, send out
from Omaha, NE 2 package(s) containing 3 copies of the BRIEF OF PARTNERSHIP SCHOOLS AS AMICUS CURIAE IN
SUPPORT OF PETITIONERS in the above entitled case. All parties required to be served have been served by third-party
commercial carrier for delivery within 3 calendar days. Packages were plainly addressed to the following:

SEE ATTACHED

To be filed for:
AVISHAI D. DON JOHN P. ELWOOD
ARNOLD & PORTER Counsel of Record
KAYE SCHOLER LLP DIRK C. PHILLIPS
250 West 55th Street SALLY L. PEI
New York, NY 10019 ARNOLD & PORTER.
(212) 836-8000 KAYE SCHOLER LLP

601 Massachusetts Avenue, NW.
Washington, DC 20001

(202) 942-5000
John.Elwood@arnoldporter.com

Subscribed and sworn to before me this 10th day of February, 2020.
I am duly authorized under the laws of the State of Nebraska to administer oaths.

PATRICIA BILLOTTE

General Notary ‘
crn ie. Zl Qudiav-h, Cle
My Commission Expires Nov 24, 2020 '*

Notary Public Affiant 39480

 
 

Attorney for Petitioners

Eric Christopher Rassbach The Becket Fund for Religious Liberty 202-955-0095
Counsel of Record 1200 New Hampshire Avenue, NW
Suite 700
Washington, DC 20036

erassbach@becketlaw.org

 

 

Attorney for Respondents

Jennifer Anne Lipski JML Law, A Professional Law Corporation —_ 818-610-8800
Counsel of Record 5855 Topanga Canyon Boulevard, Suite 300
Woodland Hills, CA 91367

jennifer@jmllaw.com

 

 
